SIGAR
     In                                     Special Inspector General for
                                             Afghanistan Reconstruction




                                                    SIGAR 15-11 Inspection Report




                          Pol-i-Charkhi Prison: After 5 Years
                          and $18.5 Million, Renovation
                          Project Remains Incomplete




                                                            OCTOBER
                                                                2014
SIGAR 15-11-IP/Pol-i-Charkhi Prison
                                                         October 2014



SIGAR
Special Inspector General for
                                                         Pol-i-Charkhi Prison: After 5 Years and $18.5 Million, Renovation
                                                         Project Remains Incomplete

                                                         SIGAR 15-11 INSPECTION REPORT

                                                         WHAT SIGAR FOUND
Afghanistan Reconstruction
                                                         More than 5 years after renovation work began, Pol-i-Charkhi prison has not been
WHAT SIGAR REVIEWED                                      completed, and the contract has been terminated for convenience. The Department of
                                                         State’s (State) Bureau of International Narcotics and Law Enforcement Affairs (INL)
Pol-i-Charkhi prison, Afghanistan’s largest              paid Al-Watan Construction Company (AWCC) $18.5 million for work performed on a
correctional facility, was built in 1973 to house        contract valued at $20.2 million, even though AWCC only completed about 50 percent
approximately 5,000 prisoners. In June 2009, the         of the required work. Furthermore, an independent firm identified defective
Department of State’s Bureau of International            workmanship, including the failure to backfill trenches, improper roof flashing, soil
Narcotics and Law Enforcement Affairs (INL)              settlement issues, and the failure to connect six back-up generators to the prison’s
awarded a contract with a modified valued of             power grid.
$20.2 million to Al-Watan Construction Company
(AWCC) to replace prison block holding areas with        SIGAR found that not all of AWCC’s work was completed according to contract
individual cells and renovate the prison’s               requirements. Most notably, AWCC substituted wood for metal roof trusses without
infrastructure, including its plumbing, electrical,      authorization and covered 30-year old wood trusses with new roofing material, rather
and septic systems. On November 26, 2010, the            than replacing them as required under the contract. AWCC’s work was overseen by a
Department of State terminated the contract for          contracting officer’s representative—a State employee—who was later convicted in the
convenience.                                             United States of improperly accepting gratuities from an INL contractor.

The Department of State also funded three capital        In contrast to the issues identified under the renovation contract, SIGAR found that
improvement projects—a potable water tower, a            three capital improvement projects—water tower, commercial power upgrade, and staff
commercial power upgrade, and a new staff                barracks—generally were completed in accordance with contract requirements.
barracks—at a cost of $5.3 million. All three            Furthermore, Pol-i-Charkhi prison is being used, but in an overcrowded condition with
projects were transferred to Afghan prison               prisoners housed in hallways. The prison was designed for about 5,000 prisoners, but
authorities.                                             currently houses about 7,400. The security advantage of reconfiguring prisoner
                                                         holding areas into smaller cells—the primary basis for the renovation work—that could
SIGAR assessed whether (1) the work was
                                                         contain and separate maximum security and other prisoners has been lost. Despite
completed in accordance with contract
                                                         overcrowding, SIGAR found the prison to be relatively well maintained.
requirements and applicable construction
standards, and (2) the prison facility was being          In commenting on a draft of this report, State said it is committed to completing the
used as intended and maintained.                         renovations project. At one point INL estimated it would cost $11 million to finish
                                                         renovations and another $5 million to construct a wastewater treatment plant to
SIGAR conducted its work in Kabul, Afghanistan,
                                                         remedy wastewater pooling on the surface of the two septic/leach fields. State said
from April through September 2014, in accordance
                                                         that once a construction monitoring system is in place, it plans to award the renovation
with the Quality Standards for Inspection and
                                                         contract and a second contract for a sustainable wastewater treatment system.
Evaluation published by the Council of the
                                                         However, there is currently no plan to connect six back-up diesel generators to the
Inspectors General on Integrity and Efficiency.
                                                         prison’s power grid.


WHAT SIGAR RECOMMENDS
We recommend that the Secretary of State direct INL to (1) determine the extent to which AWCC substituted wood for metal trusses or
covered, rather than replaced, existing wooden trusses without authorization, and take appropriate action to recoup any funds due from the
contractor; (2) conduct an inquiry into whether the contracting officer negotiated an equitable settlement agreement with AWCC, document all
accelerated construction schedule payments, and take steps to recoup funds as appropriate; (3) conduct a cost-benefit analysis of alternative
wastewater management systems, and, if warranted, reissue a Request for Information soliciting proposed solutions to managing the prison’s
wastewater management needs; (4) ensure that, before the follow-on renovation work and construction of the wastewater treatment plant or
alternative system begins, that it has a written monitoring plan in place to oversee the work performed pursuant to the two contracts; and (5)
identify the scope of work and conduct a cost-benefit analysis of awarding a separate contract—on an expedited basis—to hook-up the prison’s
six back-up power diesel generators. In commenting on a draft of this report, State generally agreed with four of our recommendations and did
not concur with one. We revised our second and fifth recommendations to reflect the fact that a review of possible disciplinary action of the
contracting officer already has occurred and to address State’s concerns regarding connecting the prison’s six generators to the prison’s
electrical system.


          For more information, contact SIGAR Public Affairs at (703) 545-5974 or sigar.pentagon.ccr.mbx.public-affairs@mail.mil.
October 17, 2014


The Honorable John F. Kerry
Secretary of State

The Honorable James B. Cunningham
U.S. Ambassador to Afghanistan


This report discusses the results of SIGAR’s inspection of renovation and new construction
work funded by the Department of State’s (State) Bureau of International Narcotics and Law
Enforcement Affairs (INL) at Pol-i-Charkhi prison located in Kabul province. We recommend
that the Secretary of State direct INL to (1) determine the extent to which AWCC substituted
wood for metal trusses or covered, rather than replaced, existing wooden trusses without
authorization, and take appropriate action to recoup any funds due from the contractor; (2)
conduct an inquiry into whether the contracting officer negotiated an equitable settlement
agreement with AWCC, document all accelerated construction schedule payments, and take
steps to recoup funds as appropriate; (3) conduct a cost-benefit analysis of alternative
wastewater management systems, and, if warranted, reissue a Request for Information
soliciting proposed solutions to managing the prison’s wastewater management needs; (4)
ensure that, before the follow-on renovation work and construction of the wastewater
treatment plant or alternative system begins, that it has a written monitoring plan in place to
oversee the work performed pursuant to the two contracts; and (5) identify the scope of work
and conduct a cost-benefit analysis of awarding a separate contract—on an expedited basis—to
hook-up the prison’s six back-up power diesel generators.
In commenting on a draft of this report, State generally agreed with four of our
recommendations and did not concur with one. We revised our second and fifth
recommendations to reflect the fact that a review of possible disciplinary action of the
contracting officer already has occurred and to address to State’s concerns regarding
connecting the prison’s six generators to the prisons electrical system. We will monitor its
implementation of corrective actions as part of our regular recommendation follow-up
activities.
SIGAR conducted this inspection under the authority of Public Law No. 110-181, as amended,
and the Inspector General Act of 1978, as amended; and in accordance with the Quality
Standards for Inspection and Evaluation, published by the Council of the Inspectors General on
Integrity and Efficiency.




John F. Sopko
Special Inspector General
   for Afghanistan Reconstruction
                                            TABLE OF CONTENTS


Renovation Contractor Did Not Meet Contract Requirements, Resulting in Contract Termination and Only About
50 Percent of the Required Work Being Completed ................................................................................................. 2 

Prison Is Being Used and Maintained, but Overcrowding Prevents Intended Separation of Prisoners ................. 6 
Conclusion.................................................................................................................................................................... 6 
Recommendations ...................................................................................................................................................... 7 

Agency Comments ....................................................................................................................................................... 8 
Appendix I - Scope and Methodology ......................................................................................................................... 9 
Appendix II - Comments from the Department of State .......................................................................................... 10 

Appendix III - Acknowledgments ............................................................................................................................... 15 


PHOTOS

Photo 1 - Aerial View of Pol-i-Charkhi Prison .............................................................................................................. 1 
Photo 2 - Wood, Instead of Metal, Trusses Installed in Wing A of Block 3 ............................................................... 3 
Photo 3 - Overcrowding in Renovated Maximum Security Cells ............................................................................... 6


ABBREVIATIONS

                    AWCC                                     Al-Watan Construction Company
                    COR                                      contracting officer’s representative

                    INL                                     Bureau of International Narcotics and Law Enforcement Affairs
                    RFI                                      Request for Information
                    RPSO                                     Regional Procurement Support Office
                    State                                    Department of State




SIGAR 15-11-IP/Pol-i-Charkhi Prison                                                                                                                                    Page i
Since 2009, the Department of State’s (State) Bureau of International Narcotics and Law Enforcement Affairs
(INL) has funded the construction or renovation of five prisons in Afghanistan. This inspection focused on one
of these regional prisons, the Pol-i-Charkhi prison in Kabul province.1 The Soviet Union funded the prison’s
initial construction—Afghanistan’s largest correctional facility—in 1973. A contractor from India built the prison
to hold about 5,000 prisoners, but it currently houses nearly 7,400. As the aerial view in photo 1 shows, the
prison consists of support facilities and three major blocks, including the wheel and spoke structure in the
center, each of which contains prisoner cells.
                                                                       In June 2009, in response to damage
Photo 1 - Aerial View of Pol-i-Charkhi Prison                          caused by 35 years of neglect, Soviet
                                                                       occupation, and warfare, the Department
                                                                       of State’s Regional Procurement Support
                                                                       Office (RPSO) awarded an INL-funded
                                                                       renovation contract to Al-Watan
                                                                       Construction Company (AWCC)—an
                                                                       Afghan firm—for $16.1 million.2 Following
                                                                       two modifications, the contract’s overall
                                                                       value increased to $20.2 million. The
                                                                       contract’s primary purpose was to
                                                                       reconfigure large, undivided prisoner
                                                                       holding areas into smaller maximum,
                                                                       medium, and minimum security cells.
                                                                       Each cell was to have a sink and one or
                                                                       more eastern-style toilets depending on
                                                                       cell size. The renovation contract also
                                                                       called for electrical and plumbing system
Source: INL, December 16, 2012                                         improvements, renovating several
                                                                       structures including the prison industries
                                                                       building and kitchen facilities, building
two septic/leach field systems,3 and procuring and installing six refurbished back-up power diesel generators.
In August 2009, the RPSO awarded a separate INL-funded contract to Basirat Construction Firm—an Afghan
architectural and engineering company—with an overall value of nearly $950,000, to provide renovation
design, project monitoring, and contractor submittal review services.
In November 2010, the RPSO terminated AWCC’s INL-funded renovation contract at the government’s
convenience based on unsatisfactory performance.4 Following contract termination, INL awarded Batoor



1 This is SIGAR’s second inspection report on an INL-funded prison project in Afghanistan. Our first inspection reviewed
INL’s construction of a regional prison in Baghlan province. See SIGAR Inspection 14-62, Baghlan Prison: Severe Damage
to $11.3 Million Facility Requires Extensive Remedial Action, May 27, 2014.
2 The contract (SGE500-09-C-0010) was awarded by the Department of State’s Regional Procurement Support Office in

Frankfurt, Germany.
3 A leach field, more commonly referred to as a drain field, is part of an on-site wastewater disposal system (septic system)

consisting of a septic tank and discharge to a drain field. Wastewater leaving the septic tank is pretreated in that solids
have settled and floatables are trapped in the first cell of the tank or at the outlet tee from the tank. This pretreated
wastewater is routed to a series of trenches which make up the drain field where a volume of storage is available while the
effluent breaks down biologically and infiltrates the soil surrounding the walls and floor of the trenches.
4 Government contracts include a termination for convenience clause, which allows the contracting officer to terminate the

contract if such action is determined to be in the government’s interest. If the government terminates a contract for
convenience, it must pay the contractor’s costs up to the termination date. Government contracts also include a
termination for default clause, which allows the contracting officer to terminate the contract for a number of reasons
including the contractor’s failure to deliver products or services within the time period specified by the contract.

SIGAR 15-11-IP/Pol-i-Charkhi Prison                                                                                   Page 1
Construction Company—an Afghan company—a $250,000 contract to document AWCC’s work completed under
the renovation contract.
Since September 2010, INL also has funded three capital improvement projects at Pol-i-Charkhi prison—a
potable water tower, a commercial power upgrade, and a new staff barracks—at a combined cost of
approximately $5.3 million. These contracts were awarded to the Afghan firms of Omran Consulting and
Construction Company, BSCEC JV MSCC, and Afghanistan Rehabilitation and Architecture Organization,
respectively.
For this inspection, we assessed whether (1) the work was completed in accordance with contract
requirements and applicable construction standards, and (2) the prison facility was being used as intended
and maintained.
We conducted our work in Kabul, Afghanistan, from April through September 2014, in accordance with the
Quality Standards for Inspection and Evaluation, published by the Council of the Inspectors General on
Integrity and Efficiency. Appendix I discusses our scope and methodology.


RENOVATION CONTRACTOR DID NOT MEET CONTRACT REQUIREMENTS,
RESULTING IN CONTRACT TERMINATION AND ONLY ABOUT 50 PERCENT OF
THE REQUIRED WORK BEING COMPLETED

More than 5 years after work began, renovation of Pol-i-Charkhi prison has not been completed, and the
contract has been terminated for convenience. Following the RPSO’s termination of the INL-funded contract in
November 2010, Batoor Construction Company reviewed and documented AWCC’s work completed under the
renovation contract. In March 2011, Batoor reported that AWCC completed approximately 50 percent of the
required renovation work. Batoor’s report also noted multiple instances of defective workmanship including the
lack of backfilling of trenches, not repairing/replacing broken fixtures, lack of proper roof flashing and gutters,
and soil settlement issues. For example, the report noted that there were no metal flashing or gutters installed
on one of the prison blocks resulting in damage to surface paint and moisture penetration in supporting walls.
We conducted our prison inspection on April 19, 2014, but were limited by the fact that the renovation work
had been completed more than 3 years prior to our site visit. We found that the prison holding areas had been
reconfigured into maximum, medium, and minimum security cells, and the cells contained the required sinks
and toilets. Our inspection of the renovated industries building and kitchen facilities did not disclose any major
deficiencies. We also found that AWCC procured and installed the six back-up power diesel generators, as
required by the contract. However, the generators cannot be used because they were not hooked-up to the
prison’s electric power grid before the renovation contract was terminated. INL officials told us that the work
necessary to make the generators operational—primarily installing paired transformers—will be done under the
planned follow-on renovation contract, which they hope to begin in late 2014 or early 2015.
We also found that not all of the renovation work was completed according to the contract requirements. For
example, based on our review of available contract documents, AWCC substituted building materials without
authorization. Specifically, under the contract’s scope of work, all roof replacements required the use of metal
trusses. INL site visit reports show that the contractor substituted wood trusses for metal trusses (see photo
2). Documents we reviewed also show that the contractor improperly covered 30-year-old wood trusses with
new roofing material, rather than replacing them as required under the contract. Following our disclosure of
this information, INL officials stated that covering existing deficient wood trusses with new roofing material
would never have been approved by a U.S. government official acting in good faith. However, AWCC performed
those renovation activities under the oversight of a contracting officer’s representative (COR) who was later
convicted in the United States of improperly accepting gratuities from Basirat Construction Firm. Further, even
if the COR believed he was acting in good faith in this instance, INL officials were unable to locate
documentation authorizing this substitution.


SIGAR 15-11-IP/Pol-i-Charkhi Prison                                                                         Page 2
                                                                  INL officials told us they anticipated an award of a
Photo 2 - Wood, Instead of Metal, Trusses Installed               follow-on contract by the spring of 2015 to complete
in Wing A of Block 3                                              the renovation work initiated in 2009 and a
                                                                  separate contract to construct a wastewater
                                                                  treatment plant. They estimated the renovation work
                                                                  would cost $11 million; the wastewater treatment
                                                                  plant, $5 million. However, in October 2014, State
                                                                  officials said that they are in the process of putting a
                                                                  construction monitoring system in place before
                                                                  awarding renovation contracts. In addition, the
                                                                  department estimates it will have an analysis of
                                                                  wastewater treatment options by the spring of 2015.
                                                           INL officials told us they need a wastewater
                                                           treatment plant to replace the prison’s three
                                                           septic/leach field systems, two of which were
                                                           constructed under the renovation contract and a
                                                           third under a more recent contract. Wastewater is
                                                           currently pooling on the surface of two of the three
                                                           leach fields due to the soil’s poor absorption
                                                           capacity.5 The renovation contract’s scope of work
                                                           required the contractor to conduct soil percolation
                                                           tests, using a certified testing agency, to verify that
Source: INL Site Visit Report, October 15, 2009            the sanitary leach field systems provided for in the
                                                           design drawings would be adequate for the task. We
found that the required soil percolation tests were performed in February 2010 and revealed poor soil porosity
at the site. However, for reasons that we could not determine, the decision was made to proceed with the
septic/leach field systems.
In January 2013, due to the failing septic/leach field systems, INL issued a Request for Information (RFI)
asking for proposals to develop an above ground wastewater treatment plant. However, no technical feasibility
or cost-benefit studies had been conducted to warrant the decision to focus the RFI on an above ground
wastewater treatment plant. INL received four proposals, all focusing on the construction of an above-ground
wastewater treatment plant. One proposal also included a “lagoon style system” as a potential alternative.6
Along with certain disadvantages, including odor and the amount of land required, the proposal noted several
advantages to this option, including observations that lagoon systems can be cost‐effective to design and
construct in areas where land is inexpensive, are simple to operate and maintain, and generally require only
part‐time staff. State subsequently said it has taken steps to hire an independent firm specializing in
wastewater treatment systems in Afghanistan to conduct an analysis of the prison’s wastewater needs.

Department of State Terminated AWCC Renovation Contract for Convenience Rather than Default, Despite
Unsatisfactory Work
On November 26, 2010, the RPSO terminated AWCC’s INL-funded Pol-i-Charkhi prison renovation contract for
convenience instead of default. On September 30, 2010, the contracting officer sent a Show Cause Notice to
AWCC stating that the government was considering terminating the contract for default because, in its opinion,


5 The new staff barracks septic tank/leach system has not yet shown signs of failing, presumably due to its more recent

construction and relatively low usage compared to the other two systems serving the general prison population.
6Lagoon systems include construction of one or more shallow ponds or basins designed to receive, hold, and treat
wastewater for a predetermined period of time. Lagoons are constructed and lined with material, such as clay or an
artificial liner, that will minimize the risk of wastewater contaminating the groundwater below. In contrast, above-ground
systems typically involve holding and aeration tanks along with the blowers and pumps needed to process waste.

SIGAR 15-11-IP/Pol-i-Charkhi Prison                                                                                   Page 3
AWCC could not complete the project by the agreed-upon date of October 31, 2010.7 The letter also noted that
the government had sent AWCC a Letter of Concern on February 18, 2010, stating that it had failed to
complete the work on time. The contracting officer, pending a final decision on the matter, invited AWCC to
present any written facts relevant to the company’s failure to perform that arose from causes beyond its
control and without fault or negligence on its part. INL officials stated their records indicate that AWCC never
responded to the offer.
On November 5, 2010, the contracting officer issued a Stop Work Order which noted that AWCC’s performance
was deemed unsatisfactory due to its lack of progress on the project, labor unrest at the work site, and a lack
of supplies to maintain efficient progress. Then, on November 26, 2012, the RPSO contracting officer issued
AWCC a termination for convenience letter.8
Although the contracting officer was able to execute some oversight and issue clear warnings to AWCC
regarding its performance, INL’s oversight efforts were compromised by a U.S. employee who served as the
COR for the AWCC renovation contract as well as the Basirat design and project monitoring contract. The COR
served in this capacity until May 2010, when he was suspended after INL and State’s Office of Inspector
General found that he had accepted money from Basirat to promote the company’s interests. The COR was
convicted and sentenced by a U.S. District Court for accepting illegal gratuities from Basirat.9 As a result, in
August 2010, State suspended Basirat from receiving any government contracts. In August 2010, State also
suspended AWCC from receiving government contracts based on receiving confidential proposal information
from Basirat concerning State solicitations.
The contracting officer who approved terminating the AWCC contract told us that he used his professional
judgment and terminated for convenience due to legal advice claiming that State would have difficulty
defending a termination for default. He added that this legal advice was chiefly based on information from
another American COR (who replaced the suspended COR), which partially supported the contractor’s case that
the company was not at fault for failing to meet the contract terms.

Department of State Reached an $18.5 Million Settlement Agreement with AWCC for Completed
Renovation Work
After a 2-year negotiation that concluded in December 2012, RPSO agreed to an $18.5 million settlement with
AWCC—92 percent of the $20.2 million contract value. RPSO agreed to the settlement despite INL and Batoor
reports showing that AWCC only completed about 50 percent of the work required under the contract. The
contracting officer who negotiated the settlement for the U.S. government told us that the final award amount
reflected actual incurred costs and not any specific completion rate. The contracting officer noted that an
RPSO contract specialist and an Afghan COR10 assisted her in lengthy negotiations with AWCC and joined her
for the final round of discussions in Istanbul, Turkey, which concluded with the signed settlement agreement.
The contracting officer added that during these final negotiations the COR concurred with many of the
contractor’s assertions. In June 2013, just 6 months later, the COR’s designation was suspended amid

7During the project, AWCC agreed to an accelerated construction schedule, reducing the period of performance from 24 to
16 months.
8For this project, the contracting officer was located at State’s RPSO in Frankfurt, Germany, and worked with a designated
COR in Kabul.
9 The contracting officer’s suspension letter to the COR notes his concerns regarding possible fraudulent activity involving
both Basirat and AWCC. Specifically, the contracting officer noted that “Investigation into your relationships with Basirat
and Al Watan Construction Company (AI Watan) are continuing, but acceptance of the $30,000 payment is by itself a
serious impropriety even if the payment could be deemed compensation for services rendered, since your duties for INL
included serving as Contracting Officer's Representative for the Pol-i-Charkhi project.”
10 While not assigned as the COR for the renovation project—which was terminated in November 2010—this individual had

COR authority on other INL funded projects including the Baghlan prison project. This individual was asked to assist the
contracting officer with the negotiation process with AWCC since the first American COR assigned to the project was
suspended and the second American COR subsequently resigned his position.

SIGAR 15-11-IP/Pol-i-Charkhi Prison                                                                                   Page 4
concerns that he may have colluded with another INL contractor, an issue discussed in our May 2014
inspection report on Baghlan prison.11 As noted in that report, INL suspected this COR of enabling a contractor
to substitute inferior products and materials, failing to discover substandard construction, approving
questionable invoices, and certifying that all contract terms had been met at the time of project turnover to INL
even though construction deficiencies remained. The COR resigned in August 2013. SIGAR investigators are
currently conducting an inquiry to determine whether the contractor or other U.S. government officials were
complicit in these alleged activities.
The final contract modification in December 2012 reflecting a settlement agreement showed that the
contracting officer granted AWCC $1.9 million—out of a possible $3.6 million—in accelerated construction
schedule payments, bringing the final contract cost to $18.5 million.12 While State said in comments to a draft
of this report that it paid only $450,000 in additional accelerated payments to the contractor, only the $1.9
million in accelerated payments stated in the final contract modification appears in documents that we
received from State. An accelerated payment schedule had been negotiated in 2009. The first contract
modification in August 2009 reduced the performance period from 24 months to 16 months and provided for
$225,000 in monthly compensatory payments over a 16-month period in recognition of the extra costs the
contractor would incur by adding weekend and night shifts to complete the work on time. To support these
payments, INL required AWCC to file monthly progress invoices, including supporting documentation
demonstrating that AWCC expended additional resources before each monthly payment could be authorized by
the COR. However, in November 2009, we analyzed the accelerated schedule payments and found that AWCC
may not have fully earned them.13 For example, our analysis found that AWCC’s labor hour submissions did not
fully justify its request for monthly acceleration payments. Our analysis concluded that the COR appeared to
have attempted to mislead the contracting officer by advising him that AWCC was meeting the accelerated
schedule, although AWCC’s own submittals showed that it was not in compliance.


Capital Improvement Projects Generally Met Contract Requirements
Since August 2010, INL has funded three capital improvement projects at Pol-i-Charkhi prison: (1) a water
tower to service the prison’s potable water needs, (2) a commercial power upgrade project to meet the prison’s
growing power needs;14 and (3) a new staff barracks for correction officials.15 These projects, awarded to
Omran Consulting and Construction Company, BSCEC JV MSCC, and Afghanistan Rehabilitation and
Architecture Organization, respectively, were completed between September 2012 and May 2013, at a
combined cost of approximately $5.3 million.
We found that the water tower and commercial power upgrade project were generally completed in accordance
with contract requirements. Although the commercial power upgrade project was completed according to
requirements, we found that work on the transformer station and connection point had not been completed
under the original renovation work prior to contract termination. As a result, the power line provided under the
capital improvement project could not be connected to the electrical grid. INL officials told us they plan to


11   SIGAR Inspection 14-62.
12 The $1.9 million included in the settlement agreement for accelerated schedule payments came under modification

M003 to the prison renovation contract (SGE500-09-C-0010) signed by the contracting officer and contractor on December
14, 2012. This document indicated that the total payment to the contractor would be $18,537,524.
13A SIGAR engineer conducted this review in November 2009 at the request of law enforcement officials interested in the
activities of the COR.
14 The commercial power upgrade was designed to meet the prison’s growing need for power by constructing a new aerial

line from the electrical substation south of the prison. This new line was meant to supplement the existing 6-megavolt
commercial line which connects to the north side of the prison from a different substation.
15 This 12-megavolt amperes project was designed to provide half of its capacity to the prison by building a new aerial line

from an electrical substation south of the prison. This new line was meant to supplement the existing 6-megavolt
commercial line which connects to the north side of the prison from a different substation.

SIGAR 15-11-IP/Pol-i-Charkhi Prison                                                                                   Page 5
complete the transformer and connection point work under the $11 million follow-on renovation contract. The
officials noted that once the work is completed there is a sufficient amount of power line at the point of
termination to make the connection. Regarding the staff barracks project, we could not find any documentation
showing that either the geotechnical site investigation or the design calculations by the barracks building
supplier had been completed. We also found, among other things, that the barracks latrine building did not
have attic exhaust vents and air conditioning as required by the contract.


PRISON IS BEING USED AND MAINTAINED, BUT OVERCROWDING PREVENTS
INTENDED SEPARATION OF PRISONERS

Pol-i-Charkhi prison is being used, but not necessarily as intended. The prison is designed to hold about 5,000
prisoners; however, INL officials estimate that it currently houses nearly 7,400 prisoners. During our
inspection, we observed some prisoners being housed in hallways due to overcrowded prison conditions. In
                                                                       addition, we were told that cell doors are
                                                                       left open so that prisoners housed in the
Photo 3 - Overcrowding in Renovated Maximum Security Cells
                                                                       hallways can have access to sinks and
                                                                       toilets (see photo 3).
                                                                      Based on our inspection, the prison
                                                                      appeared to be relatively well
                                                                      maintained. We did not find any
                                                                      significant maintenance problems.
                                                                      However, we did find some minor
                                                                      maintenance issues such as damaged
                                                                      light fixtures in cells. The prison has a
                                                                      trained maintenance staff and, according
                                                                      to INL officials, the Facility Maintenance
                                                                      Team training initiative—a nationwide
                                                                      prison operation and maintenance
                                                                      program implemented through
                                                                      Afghanistan’s Corrections System
Source: SIGAR, April 19, 2014                                         Support Program—should be operational
                                                                      by November 2014.16 INL approved the
                                                                      Facility Maintenance Team Initiative in
the spring of 2012, which is designed to enhance the General Directorate of Prisons and Detention Center’s
capacity to perform basic facility maintenance at prisons nationwide. Under the initiative, mobile maintenance
teams consisting of electricians, plumbers, masons, carpenters, and painters will be placed in seven regions,
including the Kabul region which services Pol-i-Charkhi prison.


CONCLUSION

Pol-i-Charkhi prison’s renovation remains far from finished, despite work beginning 5 years ago and spending
$18.5 million or almost all of the $20.2 million contract value. Further, some of the contractor’s renovation
work was not completed according to contract requirements—most notably wood roof trusses were substituted
without authorization for metal trusses and some 30-year old wood trusses were simply covered with new

16INL funds the Afghanistan Corrections System Support Program, which provides mentoring, advising, capacity building,
and infrastructure support to the Afghan Ministry of Interior’s General Directorate of Prisons and Detention Centers. While
the Afghan government will provide most of the future funding for these regional Facility Maintenance Teams, INL plans to
provide $80,000 during 2014 to support this initiative.

SIGAR 15-11-IP/Pol-i-Charkhi Prison                                                                                  Page 6
roofing material rather being replaced as the contract required. A corrupt COR was a factor in the oversight
breakdown of the renovation work, and another COR who resigned his position was a factor in the financial
settlement for AWCC. Furthermore, it is puzzling as to why the septic/leach field systems were constructed
when testing revealed poor soil porosity at the prison site. The decision to proceed with these now failed
systems could cost $5 million to replace with a new wastewater plant. However, potentially less expensive and
more easily maintained alternatives to the planned above ground wastewater treatment plant are only now
under consideration. INL also will need to spend an additional $11 million to complete the work that was
unfinished when the renovation contract was terminated. Both projects—wastewater treatment system and
follow-on renovation work—will require close monitoring by INL to avoid repeating the situation that occurred
under the original renovation work. One item, in our view, that needs additional review is the lack of a
connection to the prison’s power grid of the six back-up power diesel generators that were installed under the
renovation contract. On a positive note, most of the work for the three capital improvement projects—except for
several minor deficiencies associated with the staff barracks—was completed according to contract
requirements.
Pol-i-Charkhi prison is currently being used, but in an extremely overcrowded condition. As a result, the security
advantage of reconfiguring large prisoner holding areas into smaller cells—the primary basis for renovation
called for in the INL contract with AWCC—that could contain and separate maximum, medium, and minimum
security prisoners, has been lost. Despite the overcrowding, the prison has been relatively well maintained. We
believe that it is important that Afghanistan’s nationwide prison operation and maintenance program become
operational by the end of 2014, as currently planned.


RECOMMENDATIONS

To ensure the safety and security of Pol-i-Charkhi prison’s inmates and workers and to ensure the U.S.
government receives the highest value for its contract dollars, SIGAR recommends that the Secretary of State
direct INL to:


    1. Determine the extent to which AWCC substituted wood for metal trusses or covered, rather than
       replaced, existing wooden trusses without authorization, and take appropriate action to recoup any
       funds due from the contractor.

    2. Conduct an inquiry into whether the contracting officer negotiated an equitable settlement agreement
       with AWCC, document all accelerated construction schedule payments, and take steps to recoup
       funds as appropriate.

    3. Conduct a cost-benefit analysis of alternative wastewater management systems and, if warranted,
       reissue an RFI soliciting proposed solutions to the prison’s wastewater management needs.
    4. Ensure that, before the follow-on renovation work and construction of the wastewater treatment plant
       or alternative system begins, that it has a written monitoring plan in place to oversee the work to be
       performed pursuant to the two contracts.
    5. Identify the scope of work required and conduct a cost-benefit analysis of awarding a separate
       contract—on an expedited basis—to hook-up the prison’s six back-up power diesel generators to the
       prisons existing electric system.




SIGAR 15-11-IP/Pol-i-Charkhi Prison                                                                        Page 7
AGENCY COMMENTS

State provided written comments on a draft of this inspection report that are reproduced in appendix II. State
also provided technical comments that we incorporated into the report, as appropriate.
State generally agreed with four of our five recommendations and detailed the steps it is taking to implement
them. In our view, State’s ongoing and planned actions are generally responsive to our recommendations and
we will monitor its implementation of these actions as part of our regular recommendation follow-up activities.
State disagreed with our second recommendation, noting that only two acceleration payments were made to
the contractor, each in the amount of $225,000, for a total of $450,000 and that the additional acceleration
payment request was denied in its entirety and not included in the settlement amount negotiated between the
contracting officer and AWCC. However, contract modification M003—the final contract modification and
settlement agreement signed by the contracting officer and contractor on December 14, 2012—provides for a
$1.9 million payment to the contractor for accelerated schedule performance. As previously indicated in this
report, our preliminary analysis of payments for accelerated performance indicates that they were not fully
supported by the contractor’s records. Furthermore, we believe the difference between the settlement
agreement amount (92 percent of the total contract value paid to contractor) and the amount of work
completed (50 percent), raises sufficient concern to warrant a review of the negotiation and settlement files
before reaching a definitive conclusion that the contracting officer negotiated an agreement that was fair to
both the contractor and the government. Moreover, the involvement in the settlement agreement of a COR who
ultimately resigned under suspicion of collusion with an INL contractor raises the possibility that the
contracting officer may have been given unreliable or biased advice that favored the contractor. Therefore, we
maintain our recommendation that INL should conduct an inquiry into the appropriateness of the negotiated
settlement.
Finally, while State partially agreed with our fifth recommendation—and commented that connecting the six
power diesel generators to the electric grid is essential to providing the prison with reliable backup power—it
also stated that there is no existing infrastructure at the prison to support the connection of the back-up power
diesel generators to the electrical grid at this time. State also stated that, were it to award a separate contract
to hook-up the generators and install the necessary electrical system components, the project would cost an
additional $5 million and take a minimum of two years to complete. It is not clear to us why it would be so
expensive and take so long to connect the generators to the prison’s existing electrical system. As a result of
State’s comments, though, we revised our fifth recommendation to state that INL should identify the scope of
work required and conduct a cost-benefit analysis of awarding a separate contract—on an expedited basis—to
connect the prison’s six back-up power diesel generators to the prisons existing electric system.




SIGAR 15-11-IP/Pol-i-Charkhi Prison                                                                         Page 8
APPENDIX I - SCOPE AND METHODOLOGY

This report provides the inspection results of renovation and new construction work funded by the Department
of State’s Bureau of International Narcotics and Law Enforcement Affairs at Pol-i-Charkhi prison. To determine
whether the work was completed in accordance with contract requirements and applicable construction
standards, and the prison was being used as intended and maintained, we
        reviewed contract documents, design submittals, site visit reports, and other relevant project
         documentation;

        conducted an engineering assessment of the facility drawings, the construction methods used, and
         the seismic zone and relevant code requirements for the location of the prison;

        interviewed cognizant U.S. government officials concerning the facility’s construction and
         maintenance; and

        conducted a site inspection of the prison on April 19, 2014.
We conducted our inspection work in Kabul, Afghanistan, from April through September 2014. This work was
conducted in accordance with the Quality Standards for Inspection and Evaluation, published by the Council of
the Inspectors General on Integrity and Efficiency. The engineering assessment was conducted by professional
engineers in accordance with the National Society of Professional Engineers’ Code of Ethics for Engineers. We
did not rely on computer-processed data in conducting this inspection. However, we considered the impact of
compliance with laws and fraud risk. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our inspection objectives. We conducted this inspection under the
authority of Public Law No. 110-181, as amended; and the Inspector General Act of 1978, as amended.




SIGAR 15-11-IP/Pol-i-Charkhi Prison                                                                       Page 9
APPENDIX II - COMMENTS FROM THE DEPARTMENT OF STATE




SIGAR 15-11-IP/Pol-i-Charkhi Prison                   Page 10
SIGAR 15-11-IP/Pol-i-Charkhi Prison   Page 11
                                      See SIGAR
                                      comment 1.




SIGAR 15-11-IP/Pol-i-Charkhi Prison       Page 12
                                      See SIGAR
                                      comment 2.




SIGAR 15-11-IP/Pol-i-Charkhi Prison      Page 13
                        SIGAR’s Response to Comments from the Department of State

    1. The $1.9 million amount cited in the report and recommendation 2 is the amount stated in the
       settlement agreement for accelerated schedule payments. The settlement agreement is final
       modification M003 to the prison renovation contract (SGE500-09-C-0010), signed by the contracting
       officer and contractor on December 14, 2012. This document indicated that the total payment to the
       contractor would be $18.5 million. The settlement memorandum, dated December 10, 2012, and the
       undated supporting spreadsheet referred to by INL in its comments that were provided to SIGAR on
       June 3, 2014 do not document that only two acceleration payments were made to the contractor,
       each in the amount of $225,000, for a total of $450,000 or that the $1.9 million listed in the
       settlement agreement, modification M003 to the prison renovation contract dated and signed by the
       contracting officer and contractor on December 14, 2012, was not the basis for amounts paid to the
       contractor.
         As previously indicated in this report, our preliminary analysis of payments for accelerated
         performance indicates that they were not fully supported by the contractor’s records. Furthermore, we
         believe the difference between the settlement agreement amount (92 percent of the total contract
         value was paid to contractor) and the amount of work completed (50 percent), raises sufficient
         concern to warrant a review of the negotiation and settlement files before reaching a definitive
         conclusion that the contracting officer negotiated an agreement that was fair to both the contractor
         and the government. Moreover, the involvement of a COR who ultimately resigned under suspicion of
         collusion with an INL contractor in the settlement agreement process raises the possibility that the
         contracting officer may have been given unreliable or biased advice that favored the contractor.
         Therefore, we maintain our recommendation that INL should conduct an inquiry into the
         appropriateness of the negotiated settlement.
    2. While INL partially agreed with our fifth recommendation—and commented that connecting the six
       power diesel generators to the electric grid is essential to providing the prison with reliable backup
       power—it also stated that there is no existing infrastructure at the prison to support the connection of
       the back-up power diesel generators to the electrical grid at this time. INL also stated that, were it to
       award a separate contract to hook-up the generators and install the necessary electrical system
       components, the project would cost an additional $5 million and take a minimum of two years to
       complete. It is not clear to us why it would be so expensive and take so long to connect the generators
       to the prison’s existing electrical system. As a result of INL’s comments, though, we revised our fifth
       recommendation to state that INL should identify the scope of work required and conduct a cost-
       benefit analysis of awarding a separate contract—on an expedited basis—to connect the prison’s six
       back-up power diesel generators to the prisons existing electric system.




SIGAR 15-11-IP/Pol-i-Charkhi Prison                                                                     Page 14
APPENDIX III - ACKNOWLEDGMENTS

Scott Harmon, Senior Inspections Manager
Brian Flynn, Senior Audit Manager
Michael ten Kate, Inspector-in-Charge
Ronald Riach, P.E., Engineer
Ronald Snyder, P.E., Engineer




SIGAR 15-11-IP/Pol-i-Charkhi Prison        Page 15
                                      This inspection report was conducted
                                        under project code SIGAR-I-014.




SIGAR 15-11-IP/Pol-i-Charkhi Prison                                          Page 16
                               The mission of the Special Inspector General for Afghanistan
           SIGAR’s Mission     Reconstruction (SIGAR) is to enhance oversight of programs for the
                               reconstruction of Afghanistan by conducting independent and
                               objective audits, inspections, and investigations on the use of
                               taxpayer dollars and related funds. SIGAR works to provide accurate
                               and balanced information, evaluations, analysis, and
                               recommendations to help the U.S. Congress, U.S. agencies, and
                               other decision-makers to make informed oversight, policy, and
                               funding decisions to:
                                           improve effectiveness of the overall reconstruction
                                            strategy and its component programs;
                                           improve management and accountability over funds
                                            administered by U.S. and Afghan agencies and their
                                            contractors;
                                           improve contracting and contract management
                                            processes;
                                           prevent fraud, waste, and abuse; and
                                           advance U.S. interests in reconstructing Afghanistan.


  Obtaining Copies of SIGAR    To obtain copies of SIGAR documents at no cost, go to SIGAR’s Web
                               site (www.sigar.mil). SIGAR posts all publically released reports,
   Reports and Testimonies     testimonies, and correspondence on its Web site.




                               To help prevent fraud, waste, and abuse by reporting allegations of
To Report Fraud, Waste, and    fraud, waste, abuse, mismanagement, and reprisal, contact SIGAR’s
      Abuse in Afghanistan     hotline:
   Reconstruction Programs                 Web: www.sigar.mil/fraud
                                           Email: sigar.pentagon.inv.mbx.hotline@mail.mil
                                           Phone Afghanistan: +93 (0) 700-10-7300
                                           Phone DSN Afghanistan: 318-237-3912 ext. 7303
                                           Phone International: +1-866-329-8893
                                           Phone DSN International: 312-664-0378
                                           U.S. fax: +1-703-601-4065



                               Public Affairs Officer
              Public Affairs               Phone: 703-545-5974
                                           Email: sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                                           Mail: SIGAR Public Affairs
                                            2530 Crystal Drive
                                            Arlington, VA 22202
